 

MARTIN LAWRENCE,
Petitioner-Appellant,

vs.

UNITED STATES OF AMERICA,

Respondents-Appellee.

 

MOTION FOR LEAVE TO APPEAL JN FORMA PAUPERIS
Petitioner, Martin Lawrence, asks for leave to file the attached petition in
forma pauperis. Mr. Lawrence has previously been permitted to appeal in forma
pauperis before the 8" Circuit, and United States District Court in the Northern
District of lowa. Mr. Cole was appointed under the Criminal Justice Act of 1964,
18 U.S.C. ยง 3006A. See Appx. C and E. Thus, Mr. Lawrence seeks leave to

present this Petition for Certiorari under the United States Supreme Court Rule
39.1. /)

ROCKNE O. COLE

209 E. Washington Street
Paul-Helen Building, Ste 304

Towa City, lowa 52240

(319) 519-2540 Office

(319) 359-4009Fax

ATTORNEY FOR PETITIONER

 
